No. 21-45
In the

Supreme Court of the United States
__________________

PETER C. BENEDITH,
v.

Petitioner,

CUYAHOGA COUNTY OF OHIO, METROHEALTH
MEDICAL CENTER, DEPARTMENT OF MEDICINE METROHEALTH MEDICAL CENTER, AND CASE
WESTERN RESERVE UNIVERSITY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

RESPONDENT’S BRIEF IN OPPOSITION
__________________
JOHN GERAK
Counsel of Record
OGLETREE, DEAKINS, NASH, SMOAK
& STEWART, P.C.
Key Tower, 127 Public Square
Suite 4100
Cleveland, Ohio 44114
(216) 241-6100
john.gerak@ogletreedeakins.com
Counsel for Respondent
Case Western Reserve University
August 12, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
PARTIES TO PROCEEDING
AND RULE 29.6 STATEMENT
The caption of the case contains the names of all the
parties.
Respondent Case Western Reserve University
(“CWRU” or “Respondent” or the “University”) is not a
publicly-held corporation; it has no parent company;
and no publicly held company owns 10% of more of its
stock.

ii
TABLE OF CONTENTS
PARTIES TO PROCEEDING AND RULE 29.6
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
RULES INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
I. C O R R E C T I O N
OF
POTENTIAL
MISSTATEMENTS IN THE PETITION FOR
WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . 5
A. Supreme Court Rule 15.2 Obligates A
Respondent To Correct Any Perceived
Misstatement In The Petition For Writ Of
Certiorari . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Mr. Benedith’s Petition For Writ
Of Certiorari Contains Several
Misstatements . . . . . . . . . . . . . . . . . . . . . . . . . 6
1. None of the Questions Raised in Mr.
Benedith’s Petition Were Addressed by
the Lower Courts . . . . . . . . . . . . . . . . . . . . 6
2. Mr. Benedith’s Petition Incorrectly States
That His Motion Was Accepted And Filed
By The District Court . . . . . . . . . . . . . . . . 6
II. THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE DENIED. . . . . . . . . . . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iii
APPENDIX
Civil Complaint in the United States District
Court for the Central District of California
(November 8, 2019) . . . . . . . . . . . . . . . . . . . . App. 1

iv
TABLE OF AUTHORITIES
RULES
Cent. Dist. Cal. Local Rule 7-9 . . . . . . . . . . . . . 1, 3, 4
Cent. Dist. Cal. Local Rule 7-12 . . . . . . . . . . . . 1, 3, 4
Fed.R.Civ.P. 12(b) . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
Fed.R.Civ.P. 56. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 7, 8
Sup. Ct. R. 15.2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
RULES INVOLVED
Local Rule 7-9 of the Local Rules for the Central
District of California provides:
Opposing Papers. Each opposing party shall,
not later than ten (10) days after service of the
motion in the instance of a new trial motion and
not later than twenty-one (21) days before the
date designated for the hearing of the motion in
all other instances, serve upon all other parties
and file with the Clerk either (a) the evidence
upon which the opposing party will rely in
opposition to the motion and a brief but
complete memorandum which shall contain a
statement of all the reasons in opposition
thereto and the points and authorities upon
which the opposing party will rely, or (b) a
written statement that that party will not
oppose the motion. Evidence presented in all
opposing papers shall comply with the
requirements of L.R. 7-6, 7-7 and 7-8.
Local Rule 7-12 of the Local Rules for the Central
District of California provides:
Failure to File Required Documents. The
Court may decline to consider any memorandum
or other document not filed within the deadline
set by order or local rule. The failure to file any
required document, or the failure to file it within
the deadline, may be deemed consent to the
granting or denial of the motion, with the
exception that a motion pursuant to

2
Fed.R.Civ.P. 56 may not be granted solely based
on the failure to file an opposition.
Rule 12(b) of the Federal Rules of Civil
Procedure provides:
(b) How To Present Defenses. Every defense
to a claim for relief in any pleading must be
asserted in the responsive pleading if one is
required. But a party may assert the following
defenses by motion:
(1) lack of subject-matter jurisdiction;
(2) lack of personal jurisdiction;
(3) improper venue;
(4) insufficient process;
(5) insufficient service of process;
(6) failure to state a claim upon which relief can
be granted; and
(7) failure to join a party under Rule 19.
A motion asserting any of these defenses must
be made before pleading if a responsive pleading
is allowed. If a pleading sets out a claim for
relief that does not require a responsive
pleading, an opposing party may assert at trial
any defense to that claim. No defense or
objection is waived by joining it with one or more
other defenses or objections in a responsive
pleading or in a motion.

3
CWRU respectfully opposes Petitioner Peter C.
Benedith’s Petition for Writ of Certiorari to review the
judgment in this case of the United States Court of
Appeals for the Ninth Circuit (the “Petition” or “Pet.”).
INTRODUCTION
The Petition should be denied because it fails to
present any compelling reason for this Court’s review.
Mr. Benedith seeks to have this Court review the
decision of the Ninth Circuit affirming the District
Court’s dismissal of his pro se Complaint after he failed
to respond to two separate Motions to Dismiss filed by
CWRU and The MetroHealth System, as required by
Local Rules 7-9 and 7-12 of the Local Rules for the
Central District of California (the “Local Rules”).
Dissatisfaction with the Ninth Circuit’s review of the
District Court’s application of its local rules is not
grounds for granting certiorari. While Mr. Benedith
offered eight
Questions for review before this Court,
none of those Questions were argued before or
addressed by the courts below. Moreover, Mr. Benedith
has not identified any actual conflict between the Ninth
Circuit’s decision in this case and the decisions of any
state court of last resort, any other Circuit Court, or
this Court.
Therefore, pursuant to Supreme Court Rule 10, Mr.
Benedith’s Petition should be denied.
STATEMENT OF THE CASE
CWRU is a private university based in Cleveland,
Ohio. (Pet. at 2.) Mr. Benedith brought a lawsuit
against CWRU, as well as three other Ohio-based
Respondents, alleging “attempted murder” via “over

4
two hundred external stimulation from Jan[.] 2018 to
October 20th, 2019.” (Respondent’s Appendix (“Resp.
App.”) A.) CWRU filed a Motion to Dismiss the
Complaint on the grounds that Mr. Benedith failed to
state claim upon which relief may be granted and for
lack of jurisdiction over CWRU pursuant to Rules
12(b)(6) and 12(b)(2) of the Federal Rules of Civil
Procedure (“CWRU’s Motion to Dismiss”). (Pet. at 3.)
The MetroHealth System filed a similar motion to
dismiss (“MetroHealth Motion to Dismiss”) (CWRU’s
Motion to Dismiss and MetroHealth’s Motion to
Dismiss are collectively referred to as the “Motions to
Dismiss”). (Pet. App. at A-5.) Mr. Benedith did not file
any opposition to either of the Motions to Dismiss, as
required by Local Rules 7-9 and 7-12. Instead, Mr.
Benedith submitted a “Motion to Denial Defense
Motion to Dismiss,” which the District Court rejected
due to Mr. Benedith’s failure to comply with the notice
and service of motion requirements outlined in Local
Rule 6-1. (Pet. App. at A-12-A-17.) The District Court
granted the Motions to Dismiss and dismissed all
claims against all Respondents with prejudice. (Id. at
A-5-A-6.)
Mr. Benedith filed an appeal, and the Ninth Circuit
affirmed the District Court’s dismissal of his lawsuit.
(Id. at A-7-A-8.) The Ninth Circuit concluded that the
District Court properly applied its Local Rules when it
granted the Motions to Dismiss where Mr. Benedith
failed to file any opposition to either of the Motions to
Dismiss. (Id.)

5
I. CORRECTION OF POTENTIAL
MISSTATEMENTS IN THE PETITION FOR
WRIT OF CERTIORARI
A. Supreme Court Rule 15.2 Obligates A
Respondent To Correct Any Perceived
Misstatement In The Petition For Writ Of
Certiorari.
Although a respondent is not required to file a brief
in opposition to a petition for writ of certiorari, Rule
15.2 requires a respondent to report any perceived
misstatement in a petition of writ of certiorari:
Counsel are admonished that they have an
obligation to the Court to point out in the brief
in opposition, and not later, any perceived
misstatement made in the petition. Any
objection to consideration of a question
presented based on what occurred in the
proceedings below, if the objection does not go to
jurisdiction, may be deemed waived unless
called to the Court’s attention in the brief in
opposition.
Sup.Ct.R. 15.2. The Petition is replete with
misstatements, including factual misstatements about
an alleged murder weapon (Pet. at 2-3), but many of
the misstatements have no bearing on and no relevance
to the Ninth Circuit decision at issue in this case.
Accordingly, CWRU addresses only the pertinent
misstatements in the Petition, and reserves its
substantive arguments for later briefing, if ordered.

6
B. Mr. Benedith’s Petition For Writ Of Certiorari
Contains Several Misstatements.
1. None of the Questions Raised in Mr.
Benedith’s Petition Were Addressed by the
Lower Courts.
In his Petition, Mr. Benedith presented eight
Questions for review by this Court, but none of the
Questions related to issues that were actually argued
and addressed before the courts below. (Pet. at ii.) The
Ninth Circuit only addressed the District Court’s
application of its Local Rules relative to the granting of
the Motions to Dismiss because of Mr. Benedith’s
failure to file an opposition in compliance with the
Local Rules. (Pet. App. at A-7-A-8.) Because the Ninth
Circuit did not consider any of the Questions raised by
Mr. Benedith in the Petition, the eight Questions
presented for review should be dismissed as improperly
included in the Petition.
2. Mr. Benedith’s Petition Incorrectly States
That His Motion Was Accepted And Filed By
The District Court.
In his Petition, Mr. Benedith incorrectly asserts
that he successfully filed a “Motion to Denial Defense
Motion to Dismiss” in response to the Motions to
Dismiss. (Pet. at 3). Despite the fact that Mr. Benedith
attaches a copy of the District Court’s “Notice of
Document Discrepancies” to his Petition, which order
states, in relevant part, “[t]he document is NOT to be
filed, but instead REJECTED, and is ORDERED
returned to counsel,” Mr. Benedith contends that “the
judge might have sided with the plaintiff since the

7
clerk ended up docketing the opposition to the
defendant’s motion” and states his “document [was]
fi[l]ed with the court.” (Id.) These statements are
misleading and inaccurate as the District Court
rejected and did not accept for filing Mr. Benedith’s
“Motion to Denial Defense Motion to Dismiss,” and Mr.
Benedith did not otherwise file any opposition to the
Motions to Dismiss.
II. THE PETITION FOR WRIT OF
CERTIORARI SHOULD BE DENIED
Supreme Court Rule 10 provides that “[a] petition for
a writ of certiorari will be granted only for compelling
reasons.” Sup.Ct.R. 10. Rule 10 lists the following
examples of the types of cases in which the Court may
grant certiorari:
(a) a United States court of appeals has entered
a decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort; or has so
far departed from the accepted and usual course
of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an
exercise of this Court’s supervisory power;
(b) a state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state court
of last resort or of a United States court of
appeals;

8
(c) a state court or United States court of
appeals has decided an important question of
federal law that has not been, but should be,
settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
Id. Rule 10 expressly states, “[a] petition for a writ of
certiorari is rarely granted when the asserted error
consists of erroneous factual findings or the
misapplication of a properly stated rule of law.” Id.
The Petition should be denied because it presents no
“compelling reasons” for granting certiorari in this
case. See id. As set forth above, none of the Questions
presented in the Petition relate to issues that were
actually argued and addressed by the lower courts.
Moreover, this case does not involve: (1) a conflict
among United States courts of appeals; (2) a conflict
between a United States court of appeals and a state
court of last resort; or (3) a conflict on an important
federal question among state courts of last resort.
Rather, this case involves nothing more than a
straightforward dismissal for failure to oppose the
Motions to Dismiss in accordance with the District
Court’s Local Rules. Therefore, in the absence of any
compelling reasons for review, the Petition should be
denied.

9
CONCLUSION
For the foregoing reasons, CWRU respectfully
requests that this Court deny Mr. Benedith’s Petition
for Writ of Certiorari.
Respectfully submitted,
JOHN GERAK
Counsel of Record
OGLETREE, DEAKINS, NASH, SMOAK &
STEWART, P.C.
Key Tower, 127 Public Square
Suite 4100
Cleveland, Ohio 44114
(216) 241-6100
john.gerak@ogletreedeakins.com
Counsel for Respondent
Case Western Reserve University
Dated: August 12, 2021

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Civil Complaint in the United States District
Court for the Central District of California
(November 8, 2019) . . . . . . . . . . . . . . . . . . . . App. 1

App. 1

APPENDIX
Name: Peter C. Benedith
Address: 819 Santee Street
905 Los Angeles CA 90014
Phone: 310-483-0579
Fax:______________
In Pro Per
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
2:19-cv-09629-JFW-PJW
[Filed November 8, 2019]
_____________________________
Peter C. Benedith
)
)
Plaintiff
)
)
v.
)
)
Cuyahoga County of OH et al. )
)
Defendant(s).
)
_____________________________ )
Civil Complaint
United State District Court
Central California Los Angeles
Peter C Benedith
Plaintiff

App. 2
Case Number
Cuyahoga County of OH
Defendant 1
MetroHealth Medical Center

Complaint

Cleveland OH
Defendant 2
Department of Medicine
Metrohealth Medical Center
Cleveland OH
Defendant 3

Jury Trial: No

Case Western Reserve University
Cleveland OH
Defendant 4
Complaint for a civil case
Parties to the Complaint
Plaintiff
Name: Peter C Benedith
Address: 819 Santee Street 905
Los Angeles California
Phone: 310-483-0579
Email: petenwe@yahoo.com

App. 3
Defendant 1
Name: Cuyahoga County of Ohio
Address: 2079 East Ninth Street
Cleveland Ohio 44115
Phone: 216-443-7000
Defendant 2
Name: MetroHealth Medical Center
Address: 2500 MetroHealth Drive
Cleveland OH 44109
Phone: 216-778-7800
Defendant 3
Name: Department of Medicine
MetroHealth Medical Center
Address: 2500 MetroHealth Drive
Cleveland OH 44109
Phone: 216-778-7800
Defendant 4
Name: Case Western Reserve University
Address: 10900 Euclid Ave
Cleveland OH 44106
Phone: 216-368-2000

App. 4
Jurisdiction
Diversity of Citizenship
The plaintiff is a citizen of the State of California and
the defendants are organizations in the State of Ohio
Complaint
To the District Court of Central California Los Angeles
The plaintiff is suing the defendants for a total sum of
two hundred billion dollars (One billion dollars for each
count of attempted murder). This was not the first time
these defendants ever attempted to take the life of the
plaintiff and likely because they got away with it or
almost did, they continued in the quest to live without
paying for what they chose to do. In 2017, this
defendants were sued for the exact same thing....See
Attachment A. But instead of getting rid of their
torture device, there has being over two hundred
external stimulation from Jan 2018 to October 20th,
2019. Even though milder, the plaintiff did not give
these organized criminals any authorization to external
stimulates any parts of his body. This plaintiff is
arguing to this court that these defendants are
responsible for that torture apparatus and hence has
continued using it and so there for, there are only one
intended purpose for it, and this is a repeat of what
happened in 2013.
Relief Sought
The plaintiff is suing the defendant for two Hundred
billion dollars

App. 5
Certification and Closing under Federal Rule of Civil
Procedure 11, by signing below, I certify to the best of
my knowledge, information, and belief that this
compliant:
(1)
Is not being presented for an improper purpose,
such as to harass, cause unnecessary delay, or
needlessly increased the cost of litigation
(2)
Is supported by existing law or by a no frivolous
argument for extending, modifying, or reversing
existing law
(3)
The factual contentions have evidentiary support
or, if specifically so identified, will likely have
evidentiary support after a reasonable opportunities for
further investigation or discovery; and
(4)
The compliant otherwise complies with the
requirements of Rule 11. A. for Parties without an
Attorney I agree to provide the Clerk’s Office with any
changes to my address where case-related papers mat
be served. I understand that my failure to keep a
current address on file with the Clerk’s Office may
result in the dismissal of my case.
Date of signing 11/07/2019
Signature of Plaintiff s/ Peter C. Benedith
Printed Name of Plaintiff Peter C. Benedith
PLEASE SEE ATTACHED ACKNOWLEDGEMENT

App. 6
All-purpose Acknowledgment California only
A notary public or other officer completing this
certificate verifies only the identity of the individual
who signed the document to which this certificate is
attached, and not the truthfulness, accuracy, or
validity of that document.
State of California
County of Los Angeles
On 11/07/2019 before me, John Sou, Notary Public
(here insert name and title of the officer), personally
appeared Peter Chukwuka Benedith
who proved to me on the basis of satisfactory evidence
to be the person(s) whose name(s) is subscribed to the
within instrument and acknowledged to me that he
executed the same in his authorized capacity(ies), and
that by his signature(s) on the instrument the
person(s), or the entity upon behalf of which the
person(s) acted, executed the instrument.
I certify under PENALTY OF PERJURY under the
laws of the State of California that the foregoing
paragraph is true and correct.

WITNESS my hand and official seal.
Signature

/s/

App. 7
For Bank Purposes Only
Description of Attached Document
Type or Title of Document United State District Court
Central District of California
Document Date
Number of Pages

11/07/2019
6

Signer(s) Other Than Named Above None

App. 8
Attachment A
United State District Court
Northern California San Francisco
Civil Case Number CV 17 6276
Peter C Benedith
Plaintiff
VS
Case Western Reserve University
Cleveland OH
Defendant 1
Complaint
Cuyahoga County of OH
Defendant 2
Metro Health Medical Center
Cleveland OH
Defendant 3
Department of Medicine
Metro Health Medical Center
Defendant 4

Jury Trial: No

App. 9
Complaint for a Civil Case
Parties to this Compliant
The Plaintiff
Name: Peter C Benedith
Mailing Address:

PO Box 190662
SF Ca 94119

Telephone: 3104830579
Email: petenwe@yahoo.com
Defendant 1
Name: Case Western Reserve University
Address: 10900 Euclid Ave
Cleveland OH 44106
Phone: (216) 368-2000
Defendant 2
Name: Cuyahoga County of OH
Address: 2079 East Ninth Street
Cleveland, OH 44115
Phone: 216-443-7000

App. 10
Defendant 3
Name: Metro Health Medical Center
Address: 2500 Metro health Drive
Cleveland OH 44109
Phone: 2167787800
Defendant 4
Name: Department of Medicine
Metro Health Medical Center
Cleveland OH 44109
Phone: 2167788266
Jurisdiction
Diversity of Citizenship
The plaintiff is a resident of the State of California and
a citizen of the United State and the Defendants are
business entities in Ohio states
Compliant
To the District Court of Northern California San
Francisco
The complaint of the plaintiff, Peter C Benedith
respectively states that defendant is responsible for the
violation of united state penal code 2340 and the
resultant attempted suicide in late 2013 (a violation of
18USC1113). The plaintiff is suing the defendants for
damages in the tune of twenty billion dollars. In 2012,
the plaintiff attempted to sue the defendant for

App. 11
providing an avenue for anyone who wanted to use
them as a Petri-dish for hate and while trying to start
a new life in New York City, the plaintiff encountered
what he would describe as a non-confrontation
confrontation. See attachment A. Starting in summer
2013, while living in Astoria New York, the plaintiff
starting experiencing what he would describe a
stinging stimulation at both external and inner ear
(more pronounced). This felt like an electric shock and
occasional, whatever that thing was, attempted to
inform me that it was not a medical condition (wanted
me to know that someone was doing it). I would often
feel synchronization with for examples any music I was
listening to. I told my boss at that time at the VA
Medical center in Brooklyn New York because I was
desperate to get an answer but it was no help. I went to
the 5th Precinct in Chinatown New York and they
referred me to the precinct in Astoria after asking me
where I lived. On my way back from the 5th precinct, I
stopped at one police plaza and there were two cops
standing at the barricade (not at the front entrance)
and I tried to explain to them what was happening to
me and how the sensation was hard to locate and one
of them, an Asian American cop (the other was
Caucasian American) asked me who I am planning to
sue. Days later, I went to the 114 precinct and at the
entrance to the police station, there was a physician
from Metro health Medical Center from the department
of PM&R who was Asian American was sitting in front
of the police station in a car. Going to the precinct was
not helpful. I called 911 days later and told them
initially that I thought it was coming from my glasses
but when I took it off, the stimulus persisted and the
EMT wanted me to go to the hospital (Mount Sinai

App. 12
Queens) and tried to convince me that I had a medical
condition. This continued, and I had to move to back to
North Carolina. While in Fayetteville North Carolina,
the stimulation was a constant daily occurrence that
was always the same intensity and it became very
difficult to function. I called 911 at Fayetteville North
Carolina and the cop there called a social worker who
wanted me to seek a psychiatric help and as I worked
out of my apartment, the cop was laughing sitting
inside his cruiser—again wanted to know and see him
laughing. Days later, I went to the pawn shop to try to
buy a short gun but had to wait three days for the
back-ground check. I could not wait and that night, I
went home and then mixed the whole content a
container of Tylenol with one full bottle of vodka and
took most of the content and then went to sleep. Prior
to that, I also attempted to hang myself from one of the
rod fixture in the bathroom but that was not successful.
When I woke up, I was having a severe abdominal pain
and paresthesia like sensation at both legs and I did
not seek medical attention then. I went to the hospital
weeks later for the same complains and CT scan of the
head was normal and the physician could not help. I
then traveled to Ohio and while was there, with intense
pain and feeling of electric like shocking sensation at
both inner ear, I went to the Cleveland Clinic
Foundation. And in the emergency room, the physician
there who might have being a resident physician
(female), came in to take down my story and doing the
examination, while examining my teeth, she went
outside and stated that I can’t believe I just treated an
attending this way she said. The male physician who
saw me there, pointed to the ceiling with his
palm—very unorthodox way and I do not remember

App. 13
what he said. I was then transferred to north coast
psychiatry hospital for one month by a social worker.
When I left north coast, I was sent to a half way house.
The sensations continued periodically and I also went
to Akron General Hospital in spring of 2014. In spring
of 2015 when I saw a Neurologist in upper west side in
New York City and I had an MRI. The inner sensation
part of the stimulus seemed to improve but what was
happening external still remained and as recent as
2017 September, I would get what appears to be an
external stimulus that travels like a sound conduction
through the occipital part of my skull.
The plaintiff is suing the defendant who by all measure
of decency would get a score of zero because they for at
least over 6 months, they did what the plaintiff is
describing and this lead to an attempt of plaintiff to
end his life; attempted negligent homicide (a violation
of united state penal code 18USC1113. They did not
stop and the plaintiff is suing the defendant for
damages of 20 billion dollars because it is either they
hired a thug to keep their eye or ears open or they went
into an association with one (more likely). If that thug
decided to rough up the plaintiff in that process, they
can be held responsible.
Relief Sought
The plaintiff is suing the defendant for damage of 20
billion dollars for a violation of unites state penal code
2340 and the resulted attempted negligent homicide in
late 2013(18USC1113).

App. 14
Certification and Closing under Federal Rule of Civil
Procedure 11, by signing below, certify to the best of my
knowledge, information, and belief that this complaint:
(1)
Is not being presented for an improper purpose,
such as to harass, cause unnecessary delay, or
needlessly increase the cost of litigation
(2)
Is supported by existing law or by a no frivolous
argument for extending, modifying, or reversing
existing law
(3)
The factual contentions have evidentiary support
or, if specifically so identified, will likely have
evidentiary support after a reasonable opportunity for
further investigation or discovery; and
(4)
The complaint otherwise complies with the
requirements of Rule 11. A. for Parties without an
Attorney I agree to provide the Clerk’s Office with any
changes to my address where case—related papers may
be served. I understand that my failure to keep a
current address on file with the Clerk’s Office may
result in the dismissal of my case.
Date of signing:

10/25/2017

Signature of Plaintiff Peter C. Benedith
Printed Name of Plaintiff :

Peter C. Benedith

See Attached Jurat and/or Acknowledgement
Certificate

App. 15
Jurat Certificate California only
A notary public or other officer completing this
certificate verifies only the identity of the individual
who signed the document to which this certificate is
attached, and not the truthfulness, accuracy, or
validity of that document.
State of California
County of San Francisco
Subscribed and sworn to (or affirmed) on this 25 day of
Oct , 2017, by Peter Benedith
proved to me on the basis of satisfactory evidence to be
the person(s) who appeared before me.
Signature

s/________________________

Description of Attached Document
Type or Title of Document Certification and Closing
under Fed Rule of Civil Procedure
Document Date
Number of Pages

10/25/2017
6

Signer(s) Other Than Named Above 0

